NO. 20-925
In the Supreme Court of the United States
________
SEBHAT AFEWORK, M.D.,

Petitioner,

V.

VELANTA MONIQUE BABBITT,
________

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
________
SUPPLEMENTAL BRIEF FOR PETITIONER
SEBHAT AFEWORK, M.D.
________
MATTHEW SIDNEY FREEDUS

Counsel of Record

ROSIE DAWN GRIFFIN
BRENDAN MICHAEL TYLER
FELDESMAN TUCKER
LEIFER FIDELL LLP
1129 20th Street, N.W., Suite 400
Washington, D.C. 20036
(202) 466-8960
mfreedus@feldesmantucker.com
LEGAL PRINTERS

LLC

! Washington, DC ! 202-747-2400 ! legalprinters.com

QUESTION PRESENTED
The question presented is the same as that presented in BP p.l.c. v. Mayor & City Council of Baltimore, No. 19-1189 (argued Jan. 19, 2021):
Whether 28 U.S.C. 1447(d) permits a court of appeals to review any issue encompassed in a district
court’s order remanding a removed case to state court
where the removal to federal court was premised in
part on the federal officer removal statute, 28 U.S.C.
1442, or the civil rights removal statute, 28 U.S.C.
1443.

1

ARGUMENT
Because the question presented in this case is
identical to the question the Court resolved days ago
in BP p.l.c. v. Mayor & City Council of Baltimore, No.
19-1189 (decided May 17, 2021), and because that decision overrules the circuit precedent which prevented
the United States Court of Appeals for the Ninth Circuit from reviewing any basis for removal other than
28 U.S.C. 1442, the Court should grant the petition,
vacate the judgment of the Ninth Circuit below, and
remand for further consideration—namely, whether
42 U.S.C. 233(l)(2) is a proper basis for petitioner’s removal and requires the substitution of the United
States in petitioner’s place.
Section 233(l)(2) is itself an officer removal provision for the benefit of certain entities and individuals
(such as petitioner) who are deemed to be federal Public Health Service employees for purposes of the absolute immunity afforded under 42 U.S.C. 233(a). 42
U.S.C. 233 et seq. As petitioner explained in his petition, the Ninth Circuit declined to consider Section
233(l)(2), concluding that now-overruled precedent
prevented it from doing so. See Pet. 5–6; App. 8a–9a
(citing Cty. of San Mateo v. Chevron Corp., 960 F.3d
586, 598 (9th Cir. 2020)).
Having urged the Court as an amicus in BP to hold
as it just did, U.S. Br. as Amicus Curiae in Supp. of
Pet., BP p.l.c. v. Mayor & City Council of Baltimore,
No. 19-1189, at 10–31, the United States as the Federal Respondent agreed with petitioner that this case

2
should be “disposed of as appropriate in light of” the
BP decision. Resp. Br. at 8, 10.
Although the parties disagree as to whether Section 233(l)(2) is a proper basis for removal, it is clear,
in light of BP, that the dispute is for the Ninth Circuit
to resolve on remand.
Respectfully submitted.
MATTHEW SIDNEY FREEDUS
Counsel of Record
ROSIE DAWN GRIFFIN
BRENDAN MICHAEL TYLER
FELDESMAN TUCKER LEIFER FIDELL LLP
1129 20th Street, N.W.
Washington, D.C. 20036
(202) 466-8960
mfreedus@feldesmantucker.com

Counsel for Petitioner Sebhat Afework, M.D.
MAY 2021

